Blank Page

APPENDIX TABLE OF CONTENTS

APPENDIX A.
Denial of Appeal on Discrimination

la

Order of the Second Circuit Dismissing Appeal
(August 1, 2019)................................ ................ 2a
Judgment of the District Court of New York
(September 27, 2019).... .................................

4a

Summary Order of the Second Circuit
(October 11, 2019)...... ........................ .

8a

APPENDIX B.
Denial of Discrimination Trial Illegally
Opinion and Order of the District Court
of New York (February 7, 2019)..............
APPENDIX C.
Links to Edgardo Ramos and Michael
Bloomberg............................................

11a
12a

27a

APPENDIX D.
Summary of Trials in Front of Federal Court. 29a
APPENDIX E.
Letter from Phillippe Buhannic to
Judge Ramos to Speed Process....

33a

APPENDIX F.
Notice of Request to Expedite Motion

39a

Notice of Request to Expedite Motion
(April 8, 2019)............ .........................

40a

APPENDIX TABLE OF CONTENTS (Cont.)
APPENDIX G.
Federal Appeal Court Refusal
to Handle Appeal....................

44a

Federal Appeal Court Refusal to Handle
Appeal: Local Rule 34.1(b) Notice of the
Court’s Intent to Hear the Following Appeal
on Submission (August 5, 2019)
45a
Federal Appeal Court Refusal to Handle
Appeal: Local Rule 34.1(b) Notice of the
Court’s Intent to Hear the Following Appeal
on Submission (August 5, 2019)...................... 46a
Oral Argument Statement
(Local Rule 34.1(a)) (July 9, 2019)

47a

Order of the Second Circuit
(May 17, 2019)....................

50a

Order of the Second Circuit
(August 12, 2019)...............

52a

Order of the Second Circuit
(June 5, 2019).....................

53a

Notice of Defective Filing
(May 14, 2019)................

54a

Oral Argument Statement
(February 3, 2019).............

56a

Scheduling Notification
(February 5, 2019).......

58a

APPENDIX TABLE OF CONTENTS (Cont.)
Notice of Case Defective Filing
(May 21, 2019)............. ............

59a

Notice of Case Manager Change
(August 1, 2019).........................

61a

Order of the Second Circuit
(August 1, 2019).................

62a

App.la

APPENDIX A
Denial of Appeal on Discrimination

App.2a
ORDER OF THE SECOND CIRCUIT
DISMISSING APPEAL
(AUGUST 1, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PHILIPPE MARC BUHANNIC,
Plain tiff-Appellan t,
v.
MARCY FRIEDMAN,
Defendant-Appellee.
No. 19-365
Before: Robert A. KATZMANN, Chief Judge,
Rosemary S. POOLER, Peter W. HALL,
Circuit Judges.
Appellant, pro se, moves to expedite the appeal.
Upon due consideration, it is hereby ORDERED that
the motion is DENIED and the appeal is DISMISSED
because it “lacks an arguable basis either in law or
in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989);
see also Pillay v. INS, 45 F.3d 14, 17 (2d Cir. 1995) (per
curiam) (regarding the Court’s inherent authority to
dismiss an appeal that lacks an arguable basis in law
or fact).

App.3a
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.4a
JUDGMENT OF THE
DISTRICT COURT OF NEW YORK
(SEPTEMBER 27, 2019)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
PHILIPPE BUHANNIC,
Plaintiff,
v.
PIERE SCHROEDER; PIERO GRANDI; FRANK
PLACENTI; ROBERT TRUDEAU; TCV MEMBER
FUND, L.P.; JAY HOAG; and RICK KIMBALL,
Defendants.
18 CIVIL 5371 (ER)
PHILIPPE BUHANNIC
Plaintiff,
v.
TRADING SCREEN INC.; PIERE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P.;
and TCV MEMBER FUND, L.P.,
Defendants.

App.5a
18 CIVIL 5372 (ER)
PHILIPPE BUHANNIC and PATRICK BUHANNIC,
Plaintiffs,
v.
TRADING SCREEN INC.; PIERE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P.;
and TCV MEMBER FUND, L.P.,
Defendants.
18 CIVIL 7997 (ER)
PHILIPPE BUHANNIC,
Plaintiff,
v.
TRADING SCREEN INC.,
Defendants.
18 CIVIL 9351 (ER)
PHILIPPE BUHANNIC
Plaintiff,
v.

App.6a
TRADING SCREEN INC.; PIERE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI;
ROBERT TRUDEAU; TCV VI, L.P.;
and TCV MEMBER FUND, L.P.,
Defendants.
18 CIVIL 9447 (ER)
PHILIPPE BUHANNIC,
Plaintiff,
v.
TRADING SCREEN INC.; PIERE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI; ROBERT
TRUDEAU; TCV VI, L.P.; and TCV MEMBER
FUND, L.P.; JAY HOAG; and RICK KIMBALL,
Defendants.
18 CIVIL 10170 (ER)
It is hereby ORDERED, ADJUDGED AND
DECREED: That for the reasons stated in the Court’s
Order dated September 26, 2019, Defendants’ motions
to dismiss cases 18 Civ. 5371, 18 Civ. 5372, 18 Civ.
7798, 18 Civ. 9447, and 18 Civ. 10170 are granted;
Defendants’ motion for the Court to abstain from
the Indemnification Case, 18 Civ. 9351 is Denied;
accordingly, these cases 18 Civ. 5371, 18 Civ. 5372,

App.7a

18 Civ. 7798, 18 Civ. 9447, and 18 Civ. 10170 are
closed.

Ruby J. Kraiick
Clerk of Court
By: /s/ {Illegible}
Deputy Clerk

Dated: New York, New York
September 27, 2019

App.8a
SUMMARY ORDER OF THE SECOND CIRCUIT
(OCTOBER 11, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PHILIPPE BUHANNIC,
Petitioner-Appellan t,
v.
TRADINGSCREEN, INC., JOSEPH AHEARN,
Respondents-Appellees. **
No. 18-2274
Appeal from a judgment of the United States District
Court for the Southern District of New York (Ramos, J.).
Before: John M. WALKER, JR., Susan L. CARNEY,
Circuit Judges, John G. KOELTL, District Judge.*
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
July 30, 2018 judgment of the district court is
AFFIRMED.
In 2016, Philippe Buhannic and Patrick Buhannic,
brothers appearing through counsel, initiated an
** The Clerk of Court is directed to amend the caption as above.
* Judge John G. Koeltl, of the United States District Court for
the Southern District of New York, sitting by designation.

App.9a

arbitration in New York to enforce three amendments
(the “Amendments”) to the Founders’ Agreement of
TradingScreen, Inc., a company that they helped to
create. In July 2017, the arbitration panel issued an
award invalidating the Amendments (the “Award”).
In October 2017, the brothers petitioned the United
States District Court for the Southern District of
New York for an order vacating the Award. As grounds
for their petition, they invoked standards set for vacatur
by section 10(a) of the Federal Arbitration Act (“the
Act”), 9 U.S.C. § 10(a), and alleged that, under these
standards, the Award was invalid because the arbi­
trators were corrupt and partial, wrongly refused to
hear evidence, and exceeded the proper scope of their
powers. The District Court denied the petition to
vacate and confirmed the Award, concluding that the
brothers’ challenges were meritless.
Philippe Buhannic, now proceeding pro se and
without his brother, appeals the District Court’s deci­
sion. On appeal, he primarily renews the four argu­
ments that he and his brother presented to the District
Court, each corresponding to a subparagraph of section
10(a). He also presents new allegations, described
below. We assume the parties’ familiarity with the
underlying facts, the procedural history of the case,
and the issues on appeal, to which we refer only as
needed to explain our decision to affirm.
We review a district court’s decision to confirm
an arbitration award “de novo on questions of law
and for clear error on findings of fact.” Nat’l Football
League Mgmt. Council v. Natl Football League Players
Ass’n, 820 F.3d 527, 536 (2d Cir. 2016). Applying this
standard, we affirm the District Court’s resolution of
the four section 10(a) challenges, substantially for

App.lOa

the reasons stated by the District Court in its sound
opinion and order.
As mentioned, in his appellate brief Buhannic
makes new arguments for invalidating the Award,
asserting that the arbitration panel had improper
connections with counsel for Respondents-Appellees
in this matter and counsel for Respondents-Appellees
in another matter. Buhannic also includes in his
papers, and asks that we consider, new documentary
exhibits that he did not present to the District Court.
Courts generally will not consider an argument
raised for the first time on appeal unless injustice
would result. See, e.g., Singleton v. Wulff, 428 U.S.
106, 120-21 (1976). Similarly, we “will not consider
new evidence [presented for the first time on appeal]
absent extraordinary circumstances.” Munn v.
Hotchkiss Sch., 795 F.3d 324, 330 (2d Cir. 2015)
(internal quotation marks omitted). We conclude that
these principles apply with full force here: Buhannic
demonstrates no obvious injustice or extraordinary
circumstance that justifies consideration of the new
allegations and evidence for the first time on appeal.
We therefore decline to consider these matters.
We have reviewed Buhannic’s remaining argu­
ments and conclude that they are without merit. For
the foregoing reasons, the judgment of the District
Court is AFFIRMED.
For The Court:
Is/ Catherine O’Hagan Wolfe
Clerk of Court

App.lla

APPENDIX B
Denial of Discrimination Trial Illegally

App.l2a
OPINION AND ORDER OF THE
DISTRICT COURT OF NEW YORK
(FEBRUARY 7, 2019)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
PHILIPPE BUHANNIC,
Plaintiff,
v.
MARCY FRIEDMAN,
Defendant.
No. 18-CV-5729 (RA)
Before: Ronnie ABRAMS,
United States District Judge
RONNIE ABRAMS, United States District Judge:
Plaintiff Philippe Buhannic, proceeding pro se,
brings this action against the Honorable Justice Marcy
S. Friedman of the Supreme Court of the State of New
York, New York County, Commercial Division, who is
presiding over litigation brought by Plaintiff in that
court. Plaintiff alleges that Justice Friedman unlawfully
discriminated against him based on his national origin
and pro se status by denying certain of his motions in
the state court litigation, and by acting in a biased
manner against him in courtroom proceedings. Before

App.l3a
the Court is Defendant’s motion to dismiss. For the
reasons that follow, Defendant’s motion is granted.

BACKGROUND!
Plaintiff is a French citizen who has created
businesses in the Finance and Technology industries
around the world, including in the United States. In
1999, Plaintiff and his brother co-founded a company
called Trading Screen Inc. (“TradingScreen”), which
is a privately-held Delaware corporation with its princi­
pal place of business in New York. Plaintiff served as
TradingScreen’s CEO until he was terminated in May
2016. On July 11, 2016, Plaintiff sued TradingScreen
in the Supreme Court of New York, New York County,
Commercial Division, asserting breach of contract
and related claims. Justice Friedman was assigned to
the case, which is ongoing. See Buhannic et al. v. TradingScreen, Inc. et al., Index No. 653624/2016 (Sup. Ct., N.Y.
Cty.) (the “State Action”).
A.

The State Action

In a nutshell, Plaintiffs State Action seeks injunc­
tive and monetary relief for an alleged “boardroom
coup d’etat” that was purportedly orchestrated by
1 The facts in this section are drawn from Plaintiffs Amended
Complaint, its attachments, and the record in the state court
action of which the Court takes judicial notice. See Roth v. Jennings,
489 F.3d 499, 509-510 (2d Cir. 2007). They are assumed to be true
for the purposes of this motion. See id. at 510. In light of Plaintiffs
pro se status, the Court will also consider factual allegations
made in Plaintiffs opposition to Defendant’s motion to dismiss.
See Washington v. Westchester County Dep’t of Corr., No. 13
Civ. 5322(KPF), 2015 WL 408941, at *1 n.l (S.D.N.Y. Jan. 30, 2015)
(citing cases). The Court refers to the ECF pagination of the
original Complaint and Amended Complaint for ease of reference.

App.l4a

certain directors of TradingScreen to take control over
the company away from Plaintiff. Verified Amended
Compl. at If 1, Buhannic et al., Index No. 653624/2016
(Doc. 37). Plaintiff alleges that the defendants concocted
a scheme to fire him for hitting an employee, which
he claims he never did, and then used his termination
as grounds for finding that most of his shares were
forfeited under his employment agreement. This effec­
tively released Plaintiffs controlling interest in the
company. Plaintiff asserts in the State Action that
the defendants breached his employment agreement
and that he is still entitled to a majority of shares in
TradingScreen.
Between the time Plaintiff commenced the State
Action and the present action, he was represented by
four consecutive sets of counsel, all of whom withdrew,
and Justice Friedman held several conferences and
ruled on 18 motion sequences. Of the plethora of
motions filed in the State Action, the following are
the most relevant to Plaintiffs claims here. On March
2, 2017, Justice Friedman granted in part Plaintiffs
motion for a preliminary injunction and enjoined the
defendants from taking actions that would further
dilute Plaintiffs asserted majority interest in TradingScreen. On September 26, 2017, Plaintiff moved in
part to enforce an indemnification agreement against
TradingScreen, in order to recover an advancement
of attorneys’ fees and costs spent on the litigation to
date; thereafter, Plaintiff moved for an expedited
hearing on whether he was wrongfully terminated
and to resolve the number of his vested shares.
Justice Friedman denied both motions.
At a conference on February 8, 2018, Justice Fried­
man permitted Plaintiff to file a motion for further

App.l5a

discovery, a motion to release the bond securing the
March 2017 preliminary injunction, and a motion for
leave to amend his complaint. Plaintiff subsequently
filed those motions, in addition to another order to show
cause seeking a preliminary injunction for indemnifi­
cation from TradingScreen, among other relief. Justice
Friedman declined to issue the order to show cause,
but at a telephone conference on March 5, 2018, she
permitted Plaintiff to file another order to show
cause that complied with the court’s rules. Justice
Friedman denied the other foregoing motions after oral
argument on May 15, 2018. She also granted TradingScreen’s motion to seal certain documents and its
cross-motion for sanctions against Plaintiff for filing
motions seeking relief that had already been denied.
After granting Plaintiffs fourth counsel permission
to withdraw, Justice Friedman granted TradingScreen’s
request for leave to file a motion to compel Plaintiff
to appear at a deposition that TradingScreen claimed
Plaintiff had refused to schedule. On July 31, 2018,
Plaintiff then filed a motion seeking Justice Friedman’s
recusal due to her purported bias against him on the
basis of his national origin and pro se status. Justice
Friedman denied the motion on December 6, 2018, and
continues to preside over the action.
B.

This Action

On June 25, 2018, Plaintiff filed a Complaint in
this Court repeating his allegations that Justice Fried­
man discriminated against him in the State Action
based on his national origin and pro se status. See
Compl. (Dkt. l). Plaintiff requested that Justice Fried­
man “be taken off [the] case immediately and poten­
tially reprimanded,” Compl. at 18, and concluded that

App.l6a

“anything less than a change of judge and a clear
decay of ALL her decisions would be a non-remedy [.]”
Id. at 24.
On August 6, 2018, Plaintiff filed the Amended
Complaint, which reiterates the allegations of the
original Complaint, but solely requests $500,000 in
damages, no longer seeking that Justice Friedman
be recused from the State Action and that her previ­
ous decisions be vacated. Compare Amended Compl.
at 26 (Dkt. 9), with Compl. at 18, 24. Even though
the Amended Complaint does not request such relief,
the Court nevertheless considers Plaintiffs requests
in his original Complaint for an injunction vacating
Justice Friedman’s prior decisions and ordering her
to recuse herself. See Fleming v. City of New York,
No. 10 Civ. 3345(AT), 2014 WL 6769618, at *3 (S.D.
N.Y. Nov. 26, 2014) (“Even though an amended com­
plaint ordinarily supersedes the original and renders it
of no legal effect, the Court considers both Plaintiffs
original and amended complaints,” because “pro se
civil rights complaints should be read with . . . gener­
osity!!.]”).
Plaintiff asserts that Justice Friedman discrimi­
nated against him based on his national origin “almost
in every hearing” (although the basis for such allega­
tion is unclear from a review of the transcripts attached
to the Complaint and Amended Complaint). He
alleges that she “refused to talk to him because he is
French and has a slight French accent”; that she
“criticized [she] French accent and treated [him] in a
demeaning manner just for having an accent”; that
“she acted like no English speaking person could
understand [him]”; and that she “managed to correct
and erase her often[s]es from many of the transcripts,”

App.l7a

such that they “do not reveal the amount of prejudice
and bias she directed at [him at] each hearing.” Id. at
4-5,7-8. Plaintiff also alleges that Justice Friedman
“discriminated” against him due to his pro se status
by holding him “to the same standard as represented
parties,” and that her behavior violated the New York
Rules for Judicial Conduct. Id. at 13, 21. He further
alleges that this purported “discriminatory attitude”
of Justice Friedman’s was the “main drive” behind
her decision to deny certain of his motions, such as
the motions for indemnification and for leave to amend
his complaint. Id. at 11, 14-15.
Plaintiff also claims that he was deprived of due
process in the State Action because the defendants in
that case improperly served him (though he does not
specify with respect to which documents), that he “was
deprived of his right to discovery,” and that Justice
Friedman unfairly allocated more time to defense
counsel to speak in conferences. Id. at 15-16, 20-23.
Finally, Plaintiff alleges that Justice Friedman
should have recused herself because of “her close
friendship with Judge Martin E. Ritholtz who leads
the litigation department at Shiboleth,” the third law
firm that withdrew as Plaintiffs counsel. Id. at 9-10.
Although Plaintiff does not cite 42 U.S.C. § 1983
in the original or Amended Complaint, the Court
construes his pleadings as asserting claims thereunder,
as the statute provides a private right of action to
recover money damages for constitutional violations
committed by persons “acting under color of state
law,” and Plaintiff references the statute in his oppo­
sition to the motion to dismiss. Matusick v. ErieCty.
Water Auth., 757 F.3d 31, 55 (2d Cir. 2014) (quoting
42 U.S.C. § 1983); Pi’s Mem. Opp. at 10 (Dkt. 18). In

App.l8a

addition to alleging violations of his due process rights,
the Court construes the pleadings as asserting vio­
lations of Plaintiffs equal protection rights, in light
of the allegations to that effect, also in his opposition.
See Pi’s Mem. Opp. at 15-20.
On August 20, 2018, Defendants moved to dismiss
Plaintiffs Complaint for lack of subject matter juris­
diction and failure to state a claim, pursuant to Fed.
R. Civ. P. 12(b)(1) and (b)(6), and to stay discovery while
the motion to dismiss remains pending. See Dkt. 15.
Plaintiff opposed the motion, see Dkt. 18, and Defend­
ant replied, see Dkt. 19.
LEGAL STANDARDS
To survive a motion to dismiss under Rule 12(b)(6),
“a complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face’“ Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). A claim is plausible “when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Id. “Where, as
here, the complaint was filed pro se, it must be con­
strued liberally with ‘special solicitude’ and interpreted
to raise the strongest claims that it suggests.” Hogan
v. Fischer, 738 F.3d 509, 515 (2d Cir. 2013) (quoting
Hill v. Curcione, 657 F.3d 116, 122 (2d Cir. 2011)).
“Nonetheless, a pro se complaint must state a plausible
claim for relief.” Id. (citing Harris v. Mills, 572 F.3d
66, 73 (2d Cir. 2009)).
“A case is properly dismissed for lack of subject
matter jurisdiction under Rule 12(b)(1) when the district
court lacks the statutory or constitutional power to

App.l9a
adjudicate it.” Makarova v. United States, 201 F.3d
110, 113 (2d Cir. 2000). “A plaintiff asserting subject
matter jurisdiction has the burden of proving by a
preponderance of the evidence that it exists.” Id. “In
resolving a motion to dismiss under Rule 12(b)(1), the
district court must take all uncontroverted facts in
the complaint. , .as true, and draw all reasonable
inferences in favor of the party asserting jurisdic­
tion.” Tandon v. Captain’s Cove Marina of Bridgeport,
Inc., 752 F.3d 239, 243 (2d Cir. 2014).
DISCUSSION
I.

Judicial Immunity

“Few doctrines were more solidly established at
common law than the immunity of judges from liability
for damages for acts committed within their judicial
jurisdictionU” Pierson v. Ray, 386 U.S. 547, 553-554
(1967). In fact, “[a]s early as 1872, the Supreme Court
recognized that it was a general principle of the high­
est importance . .. that a judicial officer, in exercising
the authority vested in h[er], should be free to act
upon h[er] own convictions, without apprehension of
personal consequences to h[er]self.” Stump v. Spark­
man, 435 U.S. 349, 355 (1978). Were judges required
to face the fear “that unsatisfied litigants may hound
[them] with litigation charging malice or corruption [,]”
this would result in “intimidation” rather than “prin­
cipled and fearless decision making,” Pierson, 386 U.S.
at 554. Thus, for decades courts have found that
judges are absolutely immune from suit for damages
for any actions taken within the scope of their judi­
cial responsibilities, and accordingly, “even allegations
of bad faith or malice cannot overcome judicial immu­
nity.” Bliven v. Hunt, 579 F.3d 204, 209 (2d Cir. 2009)

App.20a

(“[J]udges generally have absolute immunity from suits
for money damages for their judicial actions.”); Mireles
v. Waco, 502 U.S. 9, 11 (1991).
Historically, courts have been less likely to find
that judges are immune from claims seeking injunctive
relief—as opposed to damages—against them. See, e.g.,
Erdmann v. Stevens, 458 F.2d 1205, 1208 (2d Cir. 1972)
(“[N]o sound reason exists for holding that federal
courts should not have the power to issue injunctive
relief against the commission of acts in violation of a
plaintiffs civil rights by state judges acting in their
official capacity”), cert, denied, 409 U.S. 889 (1972).
Indeed, in 1984, the Supreme Court affirmed the grant
of an injunction against a magistrate judge accused
in part of unconstitutionally imposing bail on indi­
viduals arrested for non-incarcerable offenses under
Virginia law. See Pulliam v. Allen, 466 U.S. 522, 54142 (1984) (concluding that “judicial immunity is not a
bar to prospective relief against a judicial officer
acting in her judicial capacity”). Two years later, how­
ever, Congress endorsed a more expansive approach
to judicial immunity from injunctive relief. By enacting
Section 309 of the Federal Courts Improvement Act
of 1986, Congress amended 42 U.S.C. § 1983 to pro­
vide that “in any action brought against a judicial
officer for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be granted
unless [l] a declaratory decree was violated or [2]
declaratory relief was unavailable.” Pub. L. No. 104317, 110 Stat. 3847, 3853 (1996). Accordingly, absent
the latter two exceptions, judges are now immune
from injunctive relief sought based on acts conducted
in their judicial capacity. See Montero v. Travis, 171
F.3d 757, 761 (2d Cir. 1999).

App.21a
A. Plaintiffs Demand for Damages
Justice Friedman is judicially immune from lia­
bility for Plaintiffs damages claim under 42 U.S.C.
§ 1983, which seeks $500,000 from Justice Friedman
for due process and equal protection violations pred­
icated on her allegedly discriminatory treatment
towards him. Judicial immunity can be overcome only
where a judge takes actions “in the complete absence
of all jurisdiction” or where the judge’s actions were
“nonjudicial.” Mireles, 502 U.S. at 11-12. In other
words, to be immune from liability for damages, a
defendant judge must have taken “the challenged action
[when] [s]he had jurisdiction over the subject matter
before h[er],” and the “action in question” must be
“judicial in nature.” Huminski v. Corsones, 396 F.3d
53, 74-75 (2d Cir. 2005). That is the case here.
Justice Friedman has subject matter jurisdiction
over the State Action. The New York State Supreme
Court is a court having “general original jurisdiction
in law and equity.” N.Y. Const. Art. VI § 7(a); see also
Thrasher v. U.S. Liability Ins. Co., 19 N.Y.2d 159, 166
(1967) (“The Supreme Court is a court of general
jurisdiction, and it is competent to entertain all
causes of action unless its jurisdiction has been
specifically proscribed.”) (citation omitted). Justice
Friedman therefore has jurisdiction because Plaintiff
asserts garden variety state common law claims for
breach of contract and breach of fiduciary duty.
Plaintiff nonetheless argues that Justice Friedman
lacks subject matter jurisdiction over the State Action
because, under the diversity statute, 28 U.S.C. § 1332,
there is complete diversity between the parties and
the amount in controversy exceeds $75,000. But the
diversity statute does not provide a federal court with

App.22a

exclusive jurisdiction; rather, it confers concurrent juris­
diction with that of state courts. See Gottlieb v.
Carnival Corp., 436 F.3d 335, 340 (2d Cir. 2006); Appli­
cation of Rosenthal-Block China Corp., 183 F. Supp.
659, 661 (S.D.N.Y. 1960) (“The diversity jurisdiction
of the federal courts is concurrent with that of the
state courts unless and until made exclusive by invo­
cation in the manner provided by law”). Thus, the
fact that the State Action could have been heard in
federal court on diversity grounds, does not impact
the propriety of the State Court’s exercise of subject
matter jurisdiction over that case.
Each instance of Justice Friedman’s conduct that
Plaintiff complains about is also judicial in nature.
Pursuant to Stump v. Sparkman, an act is judicial in
nature when “it is a function normally performed by
a judge,” and when the parties “dealt with the judge
in [her] judicial capacity.” 435 U.S. at 362. The Second
Circuit also looks to state law to determine whether
these factors are present in a given case. Huminski,
396 F.3d at 76. Justice Friedman’s decisions to deny
Plaintiffs various motions in the State Action are
quintessential judicial acts. See id. at 75-76 (“Clearly,
the paradigmatic judicial act is the resolution of a
dispute between parties who have invoked the juris­
diction of the court.”); Tarter v. State, 68 N.Y.2d 511,
518-519 (1988) (characterizing decisions involving a
judge’s application of law and exercise of judgment as
“classically judicial tasks”). Justice Friedman is
therefore immune from attack on the propriety of her
rulings on Plaintiffs motions. To the extent Plain­
tiffs § 1983 claim is premised on Justice Friedman’s
conduct at hearings and conferences, such conduct also
constitutes judicial action. See Rios v. Third Precinct

App.23a

Bay Share, No. 08-CV-4641 (JFB)(ETB), 2009 WL
2601303, at *3 (E.D.N.Y. Aug. 20, 2009) (presiding
over hearings is a judicial act); Cameron v. Wise, No.
09 Civ. 967(PKC)(JLC), 2011 WL 1496341, at *9
(S.D.N.Y. Apr. 20, 2011) (same), report and recom­
mendation adopted, No. 09 Civ. 967(PKC)(JLC), 2011
WL 3479295 (S.D.N.Y. Aug. 4, 2011). Moreover, Plain­
tiffs allegations concerning Justice Friedman’s pur­
ported bias against Plaintiff and her alleged collusion
with defense counsel, is conduct which courts routinely
hold cannot defeat judicial immunity. See, e.g., Tucker
v. Cutwater, 118 F.3d 930, 932 (2d Cir. 1997) (“The
cloak of immunity is not pierced by allegations of bad
faith or malice, even though unfairness and injustice
to a litigant may result on occasion.”) (citation omitted);
Dorman v. Higgins, 821 F.2d 133, 139 (2d Cir. 1987)
(“[A]n allegation that an act was done pursuant to a
conspiracy has no greater effect than an allegation
that it was done in bad faith or with malice, neither
of which defeats a claim of absolute immunity’). The
same goes for Plaintiffs allegations concerning Justice
Friedman’s revisions to the hearing transcripts. See
Green v. Maraio, 722 F.2d 1013, 1015-1017 (2d Cir.
1983) (affirming that judge alleged to have altered
transcript was entitled to judicial immunity).
In summary, Justice Friedman is entitled to
absolute judicial immunity from monetary damages
because she had subject matter jurisdiction over the
State Action, and Plaintiffs allegations concern acts
taken in her judicial capacity.
B. Plaintiff’s Demands for Injunctive Relief
To the extent Plaintiff seeks injunctive relief
against Justice Friedman under 42 U.S.C. § 1983, such

App.24a
as an order from this Court vacating her prior decisions
or requiring her to recuse herself, those requests are
also denied. As previously noted, Section 42 U.S.C.
§ 1983 provides that injunctive relief against a judicial
officer “shall not be granted unless a declaratory decree
was violated or declaratory relief was unavailable.”
Plaintiff does not allege, and the record in the State
Action does not reflect, that any declaratory decree
was violated. Nor does Plaintiff allege that declaratory
relief was unavailable. Plaintiff could have—and often
did—appeal Justice Freidman’s prior decisions denying
his motions to the First Department, making clear
that declaratory relief was not “unavailable” to him.
See, e.g., Ashmore v. New York, No. 12-CV-3032(JG),
2012 WL 2377403, at *3 (S.D.N.Y. June 25, 2012)
(noting that “[declaratory relief against a judge for
actions taken within his or her judicial capacity is
ordinarily available by appealing the judge’s order”),
affd sub. nom. Ashmore v. Prus, 510 Fed. App’x 47
(2d Cir. 2013); Salem v. Paroli, 260 B.R. 246, 254
(S.D.N.Y. 2001) (finding declaratory relief available
to plaintiff who appealed state judge’s decision
declining to recuse himself from the plaintiffs case);
see also Buhannic et al., Index No. 653624/2016, Doc.
409 (notice of appeal on Justice Friedman’s decisions
on five motion sequences, including Plaintiff s motions
for an expedited hearing, for indemnification, and for
leave to amend). Plaintiff has also more recently
appealed Justice Friedman’s decision declining to
recuse herself. See id. at Doc. 526. Accordingly, Plain­
tiff has alleged no basis on which judicial immunity
does not preclude his claims for injunctive relief against
Justice Friedman, based on her decisions in the State
Action.

App.25a

Finally, the Court notes that Justice Friedman
also moves to dismiss for lack of subject matter juris­
diction on grounds that sovereign immunity and the
Rooker Feldman doctrine bar Plaintiffs claims, and
alternatively, for failure to state a claim upon which
relief can be granted. In light of the Court’s conclu­
sion that Justice Friedman is absolutely immune from
suit in this case the Court need not address those
alternative grounds.
II.

Leave to Amend

“District courts generally grant a pro se plaintiff
an opportunity to amend a complaint to cure its
defects, but leave to amend is not warranted where it
would be futile.” Boone v. Codispoti & Assocs. P.C., No.
15-CV-1391 (LGS), 2015 WL 5853843, at *5 (S.D.N.Y.
Oct. 7, 2015) (citing Hill, 657 F.3d at 122-24). Amend­
ment is futile when “[t]he problem with [a plaintiffs]
causes of action is substantive” and “better pleading
will not cure it.” Cuoco v. Moritsugu, 222 F.3d 99,
112 (2d Cir. 2000). Such is the case here—better plead­
ing cannot alter the fact that Defendant is immune
from this suit. See, e.g., Bernstein v. New York, 591
F. Supp. 448, 469470 (S.D.N.Y. 2008) (denying leave
to amend where judicial and qualified immunity
applied to defendants).
CONCLUSION
For the foregoing reasons, Defendant’s motion to
dismiss is GRANTED and Plaintiffs requests for per­
mission to file documents electronically are DENIED as
moot. The Clerk of Court is respectfully directed to
terminate the motions pending at Dkts. 10, 13, and
17, and to close this case.

App.26a
SO ORDERED.
/s/ Ronnie Abrams
United States District Judge
Dated: February 7, 2019
New York, New York

App.27a

APPENDIX C
Links to Edgardo Ramos and Michael Bloomberg

App.28a
LINKS TO EDGARDO RAMOS
AND MICHAEL BLOOMBERG
https://heavy.com/news/2019/05/judge-edgardo-ramos/
Edgardo Ramos was a partner at the Day Pitney
law firm before President Obama nominated him to
serve as a federal judge. According to his Senate Judi­
ciary Committee questionnaire, Ramos was based out of
the firm’s New York City office.
Ramos worked at Day Pitney from June of 2002
until December of 2011, according to his Linkedln
profile. He specialized in white-collar defense at the
law firm. He wrote in the congressional questionnaire,
“I represent corporations and individuals in connection
with criminal and regulatory investigations conduc­
ted by federal and state agencies involving, among other
substantive areas, antitrust, bank fraud, securities
fraud, public corruption and government program fraud.
I also conduct internal investigations for corporate
clients.”
During this time period, Ramos was also appoin­
ted by New York City Mayor Michael Bloomberg to serve
on the Commission to Combat Police Corruption.

App.29a

APPENDIX D
Summary of Trials in Front of Federal Court

App.30a

SUMMARY OF TRIALS
FRONT OF FEDERAL COURT

Case

Case basic value

1:18-cv-02430-ER

Arbitrage appeal

Complexity level
From 1 to 10

Date filed

Progress

4

03/19/18

0%

Case

Case basic value

1:18-cv-05371-ER

Corporate criminal matters

Complexity level
From 1 to 10

Date filed

Progress

6

06/14/18

0%

Case

Case basic value

l:18-cv-05372-ER

Books and records demand

Complexity level
From 1 to 10

Date filed

Progress

1

06/14/18

0%

App.31a
Case

Case basic value

l:18-cv-05729-RA

Discrimination

Complexity level
From 1 to 10

Date filed

Progress

5

06/25/18

closed illegally

Case

Case basic value

1:18-cv-07997-ER

Employment

Complexity level
From 1 to 10

Date filed

Progress

3

08/31/18

0%

Case

Case basic value

l:18-cv-09351-ER

Indemnification of legal
expenses

Complexity level
From 1 to 10

Date filed

Progress

1

10/12/18

0%

Case

Case basic value

l:18-cv-09447-ER

Indemnification of legal
expenses

Complexity level
From 1 to 10

Date filed

Progress

1

10/16/18

0%

App.32a
Case

Case basic value

1:18-cv-1017 0-ER

Issuance of Restricted
stocks

Complexity level
From 1 to 10

Date filed

Progress

1

11/01/18

0%

App.33a

APPENDIX E
Letter from Phillippe Buhannic to
Judge Ramos to Speed Process

App.34a
LETTER FROM PHILLIPPE BUHANNIC TO
JUDGE RAMOS TO SPEED PROCESS
(APRIL 4, 2019)
Philippe Buhannic
Aventura 318
Route des Creux 100
1936 Verbier Switzerland
Via ECF
Hon. Edgardo Ramos
United States District Judge
for the Southern District of New York
United States Courthouse
500 Pearl Street
New York, NY 10007
Re: Buhannic et al. v. TradingScreen Inc. et al.
Dear Judge Ramos:
As you are aware I am living in Europe and I am
Pro Se. I have been very patient but time has come for
this court to finally do something. I have put together
the following table that summarizes the cases under
your control that are totally stuck despite the
ABSOLUTE urgency raised to you by the Plaintiffs,
every time, as the company I created is being destro­
yed, brought to bankruptcy and stolen assets in full
day light with no action of this court. And this happens
despite my immense efforts with no resources against a
bunch of crooked lawyers. I have tried multiple time to
accelerate the course of justice and the pace of your
court which has refused to do the only right and fair
thing to do which is to accelerate the discussion on
the merits instead of fighting on process all the time.

App.35a

Case

Subject

Federal Court
specific

18-CV-05371

Board
composition

Yes

File Date

Current delay

14-Jun-18

9.5 Months

0

Case

Subject

Federal Court
specific

18-cv-05372

Information
Demand

Yes

File Date

Current delay

14-Jun-18

9.5 Months

0

Case

Subject

Federal Court
specific

18-cv-07997

Employment

Yes in subjects

File Date

Current delay

31-Aug-18

7 Months

Complexity and
work level
0=easy
5=difficult

Complexity and
work level
0=easy
5=difficult

Complexity and
work level
0=easy
5=difficult
2

App.36a

Case

Subject

Federal Court
specific

18-cv-10170

Issuance of
stocks

Yes

File Date

Current delay

Ol-Nov-18

5 Months

Complexity and
work level
0=easy
5=difficult
0

This table shows that subjects that can be
resolved like in the case of stock issuance or
information demand in one day in some other
jurisdictions have not moved without any reasons in
5 months and 9.5 months respectively. It takes an
hour to analyze and 15 mn to write the order.
This is not the efficiency I was expected from the
Federal court. 9.5 months to obtain documents that
we are totally entitled to as Board members to check
on abuse of corporate assets of the crooked
management is as close to a collusion with the crooks
as it can be. In the same line the issuance of stocks which
is guaranteed by Delaware law taking 5 months for
no progress at all? Is that why I have paid millions of
USD of taxes over the last 40 years and incredibly
expensive case fees? 9.5 months to have the charter
and series D agreement enforced and get a new
independent selected? The only slightly more compli­
cated issue is the employment issue, even if the
merits are obvious and non negotiable. Employment
issues in any country in the world given the impact on
people is usually put on a fast track. Here all these have
been put on purpose on the slower track possible with

App.37a

an obvious denial of due process despite this due
process being totally guaranteed, even for the
plaintiffs by the US constitution.
After being confronted to outright judge
corruption in Delaware and New York where my case
was filed wrongly by unscrupulous and corrupt
lawyers, I was expecting a much better process from
the Federal court. The inaction of the Federal court is
denying me due process on simple issues, that can be
resolved in a single day, is again serving the big corrupt
law firms like Morgan Lewis and Weil Gotschal and
making the crooks at TCV capable of controlling my
company with 18% of the shares and denying me the
control despite my control of 70 % of the stocks. This
court is becoming an accomplice of the theft of the
best Fintech company because of its inaction and its
refusal of taking a decision despite this curt being
the only valid forum given Diversity and the Federal
subjects like manipulation of retirement, Securities
fraud and wire fraud and mail fraud.
I am therefore requesting immediately if possible,
from this court a review of the various subjects and a
focus at reaching conclusion on the obvious decisions
like the election of the missing independent, the
issuance of stocks or information demand. Given the
patience we have demonstrated already we will have
to move to a higher jurisdiction very quickly now if
our due processes continuing to be denied so obviously.
These cases are simple to analyze, judge upon
and conclude like in the summary judgement case.
Morgan Lewis that knows they have no points on all
of these cases on the merits are desperately trying to
leverage the procedure and select the courts they

App.38a
have colluded with to judge on them like in New
York and Delaware.
Can I ask respectfully your office for once to
provide simply an answer to my questions that are
logical, efficient and in favor of justice instead of
another case of collusion of the system with big
corrupt law firms that I would not imagined existed
in the Federal court system.
Thanks again for your understanding and if for
once we could be treated like the expensive corrupt
lawyers of Morgan Lewis and get answers that would
be a plus. I am at your disposal to fix any procedural
issue you feel necessary to fix in the coming days as
Pro Se with no resources. A fact I hope you
appreciate along the recommendation of all the rules
to assist Pro se litigants.

Respectfully,
Is/ Philippe Buhannic
Cc: all counsels of record

App.39a

APPENDIX F
Notice of Request to Expedite Motion

App.40a
NOTICE OF REQUEST TO EXPEDITE MOTION
(APRIL 8, 2019)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
PHILIPPE BUHANNIC, PATRICK BUHANNIC,
AND TRADINGSCREEN SHAREHOLDERS
ASSOCIATION
Petitioners,
v.
TRADINGSCREEN INC.; PIERRE SCHROEDER;
PIERO GRANDI; FRANK PLACENTI; ROBERT
TRUDEAU; TCV VI, L.P., AND TCV MEMBER
FUND, L.P.,
Respondents.
Index No: Multiple
Before: Edgardo RAMOS, Judge.
PLEASE TAKE NOTICE that, upon the
annexed affirmation of Philippe Buhannic dated
April 9, 2019, the exhibits attached thereto, the accom­
panying memorandum of law, and any other papers,
pleadings and proceedings in this action, Plaintiffs
will move this Court at the Courthouse located at 500
Pearl Street, New York, New York 10007, on May 22,
2019 at 9:30am, or as soon thereafter as Plaintiffs
(pro se) can be heard, to issue an order, pursuant to

App.41a

Federal Rules of Civil Procedure (FRCP), granting
the following reliefs to the movant:
1.

Organize if necessary a conference on May
9th at 9:30 or move directly to the motions
as they are easy to resolve, have been
outstanding for some of them for a year
now, despite their obviousness and simpli­
city as they are single subject and case law
speak loudly in favor of the Plaintiffs.

2.

Given the extreme urgency of the situation
with a company m quasi bankruptcy and a
systematic theft of assets perpetrated if the
court does not move with the court compli­
city in a flagrant denial of Due process and
despite all the costs incurred by the Plain­
tiffs and charged by the court for up to this
day no decision whatsoever.

3.

Given the extreme urgency of
the
employment issues which are always being
treated in every country of the world with
speed and efficiency as real people suffer
behind. The Plaintiffs have been scammed and
have not received their retirement for 10
years, have not received their bonuses, are
being stolen unchecked assets and stocks and
the court has been doing exactly NOTHING

4.

Given the requirement from the US
constitution for Due process, a timely resolu­
tion is a full part of this Due process and
this court has shown so far a total neglect for
applying the law, even when it is obvious
like for the information demand that takes

App.42a
days in any other jurisdiction and here has
been going on for a year.
5.

Given the clear danger that the Plaintiffs
will lose everything given the outright theft
going on and the catastrophic financial situa­
tion of the company, time is of the essence
and once again the decision to be taken are
simple, clear and very easy to decide upon.
The Plaintiffs are in complete surprise by
the unnecessary delays that have been
applied unduly by this court to very simple
questions that can be answered legally in a
few min utes.

6.

For all these reasons and in order to respect
the obligations of the court towards Due
process, protected by the US constitution,
we are requesting for cases index No: 18-CV
-5371, 18-CV-5372, 18-CV7997, 18-CV-9351,
18-CV-9447, 18-CV-10170 as well as the
written consent case for which we don’t have a
case number, an expedited schedule and a
resolution by May 24. Given the time elapsed
and the cases it is totally reasonable.

PLEASE TAKE FURTHER NOTICE, that
pursuant to, you a Federal Rules of Civil Procedure
(FRCP) you are hereby required to serve copies of
your answering affidavits on the undersigned no
later than the seventh day prior to the date set above
for submission of this motion.

App.43a
By:
/s/ Philippe Buhannic
Dated: Verbier, Switzerland

App.44a

APPENDIX G

Federal Appeal Court Refusal to Handle Appeal

App.45a
FEDERAL APPEAL COURT REFUSAL TO
HANDLE APPEAL: LOCAL RULE 34.1(B)
NOTICE OF THE COURT’S INTENT TO HEAR
THE FOLLOWING APPEAL ON SUBMISSION
(AUGUST 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Thurgood Marshall U.S. Courthouse
40 Foley Square, New York, NY 10007
SHIBOLETH LLP
v.
BUHANNIC
Docket No. 18-2102cv
DC Docket No. 18-cv-2585
DC Court: SDNY (NEW YORK CITY)
DC Judge: Sullivan
The Court has determined that oral argument of
this appeal is unnecessary according to the standard
set forth in FRAP 34(a)(2). Accordingly, this appeal will
be determined on submission of the briefs on October
2,2019.
cc: Philippe Marc Buhannic

App.46a
FEDERAL APPEAL COURT REFUSAL TO
HANDLE APPEAL: LOCAL RULE 34.1(B)
NOTICE OF THE COURT’S INTENT TO HEAR
THE FOLLOWING APPEAL ON SUBMISSION
(AUGUST 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Thurgood Marshall U.S. Courthouse
40 Foley Square New York, NY 10007
BUHANNIC
v.
TRADINGSCREEN INC
Docket No. 18-2274cv
DC Docket No. 17-cv-7993
DC Court: SDNY (NEW YORK CITY)
DC Judge: Ramos
The Court has determined that oral argument of
this appeal is unnecessary according to the standard
set forth in FRAP 34(a)(2). Accordingly, this appeal will
be determined on submission of the briefs on October
2, 2019.
cc: Philippe Marc Buhannic

App.47a
ORAL ARGUMENT STATEMENT
(LOCAL RULE 34.1(a))
(JULY 9, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SHIBOLETH LLP
v.
BUHANNIC
Docket No. 18-2102
To Request Oral Argument, Fill Out This Form
and File It with the Clerk Within 14 Days After
the Filing of the Last Appellee Brief. If This
Form Is Not Timely Filed, You Will Not Be
Permitted to Argue in Person.
Short Title of Case: Shiboleth LLP v. Buhannic
Docket No. 18-2102
Name of Party: Shiboleth LLP
Status of Party
(e.g., appellant, cross-appellee, etc.): Appellee
Check one of the three options below:
V I want oral argument only if at least one
other party does.
If no party wants oral argument, the case will be
decided on the basis of the written briefs. If you want

App.48a
oral argument, you must appear in Court on the date
set by the Court for oral argument.
The Court may determine to decide a case without
ORAL ARGUMENT EVEN IF THE PARTIES REQUEST IT.

If you want oral argument, state the name of the
person who will argue:
Name: Charles B. Manuel. Jr.
(An attorney must be admitted to practice
before the Court in accordance with Local
Rule 46.1.)
If you want oral argument, list any dates (includ­
ing religious holidays), that fall in the interval from 6
to 20 weeks after the due date of this form, that the
person who will argue is not available to appear in
Court: September 2-12. 2019
Anyone Who Wants to Argue Must Update the
Court in Writing of Any Change in Availability,
the Court May Consider a Failure to Update
About Availability When Deciding a Motion to
Postpone a Set Argument Date.
Filed by:
/s/ CBM
Charles B. Manuel, Jr.
Dated: 7/9/2019

App.49a

CERTIFICATE OF SERVICE
I, Peter C. Neger, hereby certify under penalty of
perjury that on May 14, 2019, I served a copy of the
May 14, 2019 letter of John M. Vassos in opposition
to Philippe Buhannic’s motion to reinstate his appeal
by Federal Express on Philippe Buhannic at the
Following addresses:
Aventura 318
Route Des Creux 100
1936 Verbier, Switzerland
65 Central Park West
Apartment 17A
New York, New York 10023
By: /s/ Peter C . Neger
Peter C. Neger

Dated: May 14,2019

App.50a
ORDER OF THE SECOND CIRCUIT
(MAY 17, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
TRADINGSCREEN SHAREHOLDERS
ASSOCIATION (TSA), TCV MEMBER FUND, L.P.,
Plaintiff,
PHILIPPE MARC BUHANNIC,
Plain tiff -Appellan t.
v.
TRADINGSCREEN INC.,
PIERRE SCHROEDER, PIERO GRANDI,
Defen dan ts-Appellees,
FRANK PLACENTI,
ROBERT TRUDEAU, TCV VI, L.P,
Defendant.
Docket No. 19-531
Before: Peter W. HALL, Circuit Judge.
Appellant, pro se, moves to reinstate the appeal.
IT IS HEREBY ORDERED that the motion is
DENIED.

App.51a

For The Court:

/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.52a
ORDER OF THE SECOND CIRCUIT
(AUGUST 12, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PHILIPPE BUHANNIC
Pe ti tion er-Appellan t,
v.
TRADINGSCREEN INC., JOSEPH AHEARN,
Defendan ts-Appellees.
Docket No. 18-2274
IT IS HEREBY ORDERED that appellant’s motion
to file a late reply brief is GRANTED.
For The Court:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.53a
ORDER OF THE SECOND CIRCUIT
(JUNE 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PHILIPPE BUHANNIC,
Petition er-Appellan t,
v.
TRADINGSCREEN INC., JOSEPH AHEARN,
Defen dan ts-Appellees.
Docket No. 18-2274
Appellant’s Philippe Buhannic submission of
motion to file late reply brief does not comply with
the Court’s prescribed filing requirement. Despite
due notice, the defect has not been cured.
IT IS HEREBY ORDERED that the said motion
is stricken from the docket.
For The Court:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

App.54a
NOTICE OF DEFECTIVE FILING
(MAY 14, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Thurgood Marshall U.S. Courthouse
40 Foley Square New York, NY 10007
BUHANNIC
v.
TRADINGSCREEN INC
Docket No. 18-2274
DC Docket No. 17-cv-7993
DC Court: SDNY (NEW YORK CITY)
DC Judge: Ramos
On May 14, 2019 the Motion, on behalf of Appel­
lant Mr. Philippe Marc Buhannic, was submitted in the
above referenced case. The document does not comply
with the FRAP or the Court’s Local Rules for the
following reason(s):
V Incorrect Filing Event
V Other: please re-file as “Motion to Late of Filing”
Please cure the defect(s) and resubmit the docu­
ment, with the required copies if necessary, no later
than 5/16/2019. The resubmitted documents, if
compliant with FRAP and the Local Rules, will be
deemed timely filed.

App.55a

Failure to cure the defect(s) by the date set forth
above will result in the document being stricken. An
appellant’s failure to cure a defective filing may
result in the dismissal of the appeal.
Inquiries regarding this case may be directed to
212-857-8563.

App.56a
ORAL ARGUMENT STATEMENT
(FEBRUARY 3, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
BUHANNIC
v.
FRIEDMAN
19-365
To Request Oral Argument, Fill Out This Form
and File It with the Clerk Within 14 Days After
the Filing of the Last Appellee Brief. If This
Form Is Not Timely Filed, You Will Not Be Per­
mitted to Argue in Person.
Short Title of Case: Buhannic v. Friedman
Docket No. 19-365
Name of Party: Philippe Buhannic
Status of Party
(e.g., appellant, cross-appellee, etc.): Appellant
Check one of the three options below:
V I want oral argument
If no party wants oral argument, the case will be
decided on the basis of the written briefs. If you want
oral argument, you must appear in Court on the date
set by the Court for oral argument.

App.57a
The Court may determine to decide a case without
ORAL ARGUMENT EVEN IF THE PARTIES REQUEST IT.

If you want oral argument, state the name of the
person who will argue:
Name: Philippe Buhannic
(An attorney must be admitted to practice
before the Court in accordance with Local
Rule 46.1.)
If you want oral argument, list any dates
(including religious holidays), that fall in the interval
from 6 to 20 weeks after the due date of this form,
that the person who will argue is not available to
appear in Court: June
Anyone Who Wants to Argue Must Update the
Court in Writing of Any Change in Availability,
the Court May Consider a Failure to Update
About Availability When Deciding a Motion to
Postpone a Set Argument Date .
Filed by:
/s/ Philippe Buhannic
Philippe Buhannic
Dated: 5-Feb-2019

App.58a
SCHEDULING NOTIFICATION
(FEBRUARY 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PHILIPPE BUHANNIC
v.
MARCY FRIEDMAN
No. 19-365
I, Philinne Buhannic hereby certified under penalty
of perjury that on 5 Feb 2019,1 Served a copy of Oral
Argument. Certificate of Service. Pro Se Scheduling.
Notice of Appearance for Statement
By
Federal Express or Other Overnight Courier
Marcy Friedman
60 Center Street
New York, NY 10007
/s/ Buhannic
Today’s Date: 5-Feb-2019

App.59a
NOTICE OF CASE DEFECTIVE FILING
(MAY 21, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Thurgood Marshall U.S. Courthouse
40 Foley Square New York, NY 10007
BUHANNIC
v.
FRIEDMAN
Docket No. 19-365
DC Docket No. 18-cv-5729
DC Court: SDNY (NEW YORK CITY)
DC Judge: Abrams
On May 21, 2019 the Motion, to expedite motion,
on behalf of the Appellant Mr. Philippe Marc Buhannic,
was submitted in the above referenced case. The doc­
ument does not comply with the FRAP or the Court’s
Local Rules for the following reason(s):
V Improper proof of service (FRAP 25)
V Served to an incorrect address—Please refer to
the docket sheet for the correct party and
address to serve.
Please cure the defect(s) and resubmit the docu­
ment, with the required copies if necessary, no later
than June 11, 2019. The resubmitted documents, if

App.60a

compliant with FRAP and the Local Rules, will be
deemed timely filed.
Failure to cure the defect(s) by the date set forth
above will result in the document being stricken. An
appellant’s failure to cure a defective filing may
result in the dismissal of the appeal.
Inquiries regarding this case may be directed to
212-857-8546.

App.61a
NOTICE OF CASE MANAGER CHANGE
(AUGUST 1, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Thurgood Marshall U.S. Courthouse
40 Foley Square New York, NY 10007
BUHANNIC
v.
FRIEDMAN
Docket No. 19-365cv
DC Docket No. 18-cv-5729
DC Court: SDNY (NEW YORK CITY)
DC Judge: Abrams
The case manager assigned to this matter has been
changed
Inquiries regarding this case may be directed to
212-857-8522

App.62a
ORDER OF THE SECOND CIRCUIT
(AUGUST 1, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PHILIPPE MARC BUHANNIC,
Plain tiff-Appellan t,
v.
MARCY FRIEDMAN
Defendan t-Appellee.
No. 19-365
Before: Robert A. KATZMANN, Chief Judge,
Rosemary S. POOLER, Peter W. HALL,
Circuit Judges.
Appellant, pro se, moves to expedite the appeal.
Upon due consideration, it is hereby ORDERED that
the motion is DENIED and the appeal is DISMISSED
because it “lacks an arguable basis either in law or
in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989);
see also Pillay v. INS, 45 F.3d 14, 17 (2d Cir. 1995) (per
curiam) (regarding the Court’s inherent authority to
dismiss an appeal that lacks an arguable basis in law
or fact).

App.63a
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk of Court

SUPREME COURT
PRESS

